No. 19-692
In the

Supreme Court of the United States
__________________
SUNIL DEO,
Petitioner,
v.
CALIFORNIA,
Respondent.
__________________
On Petition for a Writ of Certiorari to the
Court of Appeal of California,
Fourth Appellate District, Division One

__________________
MOTION FOR LEAVE TO FILE AMICUS
BRIEF AND AMICUS CURIAE BRIEF
OF CALIFORNIA LAND TITLE ASSOCIATION
IN SUPPORT OF PETITIONER
__________________
CHARLES A. HANSEN
Counsel of Record
MARK D. EPSTEIN
WENDEL ROSEN LLP
1111 Broadway, 24th Floor
Oakland, CA 94607-4036
(510) 834-6600
chansen@wendel.com
mepstein@wendel.com
Counsel for Amicus Curiae
California Land Title Association
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
MOTION FOR LEAVE TO FILE
Movant California Land Title Association (“CLTA”)
respectfully requests leave to file the accompanying
brief as amicus curiae in support of the Petition for
Writ of Certiorari filed by Sunil Deo. The Petitioner,
Sunil Deo, supports this motion and supports having
the movant submit the accompanying amicus brief.
The respondent, People of the State of California, has
not responded to the movant’s and amicus curiae’s
request for their consent to the filing of this motion and
amicus brief.
Therefore, this motion is required
pursuant to Rules 37.2(a) and 37.3(a) of the Rules of
the Supreme Court of the United States.
IDENTITY AND INTERESTS OF MOVANT
Movant, CLTA, is (www.CLTA.org) is a statewide
trade association existing as a nonprofit corporation
under California law. Its principal offices are located
at 1215 K Street, Suite 1816, Sacramento, California
95814. CLTA’s membership includes virtually all “title
insurers,” “underwritten title companies,” and
“controlled escrow companies” who conduct business in
the State of California, as those terms are defined by
California Insurance Code sections 12340.4, 12340.5,
12340.6. CLTA’s membership also includes affiliate
members such as attorneys, lenders, builders,
surveyors, trustees, escrow agents, consultants and
computer firms. As part of its functions, CLTA acts as
spokesperson and representative of its members in
matters of common concern, and pursuant to its role as
an advisory organization. CLTA also is an “advisory
organization” as that term is defined in section 12340.8
of the California Insurance Code. CLTA prepares and

ii
recommends to its membership and to the California
Department of Insurance standard title insurance
policy forms and endorsements as well as procedural
manuals. CLTA is active in the advocacy and
monitoring of legislation and regulations affecting the
title industry. CLTA also monitors judicial decisions
affecting the title industry and files briefs in cases of
statewide significance. CLTA has appeared as an
amicus curiae in a number of cases before the
California Supreme Court and the California Courts of
Appeal. This case presents a matter of direct interest
to CLTA and its members.
REASONS TO GRANT LEAVE TO FILE THE
ACCOMPANYING AMICUS BRIEF
Pursuant to Rule 37.2(b) of the Rules of the United
States Supreme Court, movant CLTA respectfully
seeks leave to file the accompanying Amicus Curiae
brief in support of the Petition for Writ of Certiorari
filed by Petitioner Sunil Deo on the grounds that the
proffered amicus brief would bring several categories of
relevant and additional matters to the Court’s
attention:
1. First, the CLTA’s amicus brief addresses the
impact that the relevant portions of the statute at
issue, California Penal Code section 115, and the
published California Court of Appeal decision that
applies the statute, People v. Astorga-Leidera, 35
Cal.App.5th 646 (2019), will have on the holders of fee
title to real property – owners – rather than the impact
they will have on real property lienholders, which is
the focus of the Petitioner’s brief.

iii
2. Second, the CLTA amicus brief addresses the
reasons why California Penal Code section 115, and the
application of the statute by the California Court of
Appeal in the People v. Astorga-Leidera, supra, decision
run afoul of the Due Process Clause of the Fifth
Amendment to the United States Constitution and its
application to the states via the Fourteenth
Amendment under the balancing test adopted by this
Court in Mathews v. Eldridge, 424 U.S. 319, 335
(1976). The manner in which of California Penal Code
sections 115(e) and (f) enable a criminal law court to
summarily declare, adjudge and decree a deed to be
void following an abbreviated hearing, and for the same
court to disregard the findings and conclusions on the
same matter by a coequal civil law court before which
a quiet title action is pending: (1) unfairly violates a
competing claimant's property interests; (2) will
usually impair the interests of more than one
stakeholder; (3) the decision by the criminal law court
based on a truncated and limited procedure; and (4) the
governmental interest in making the correct decision
on the issue is well worth any increased fiscal and
administrative burdens that allowing the competing
civil quiet title action to proceed would entail.
3. The CLTA’s amicus brief also addresses the
ramifications of California Penal Code section 115, and
the application of the statute by People v. AstorgaLeidera, supra, for the widely recognized principle of
judicial comity, which generally calls for one court in
the same jurisdiction and the same level as a second
court to refrain from exercising jurisdiction over a
matter involving the same parties and issues to avoid
placing an unnecessary burden on the judiciary, and

iv
avoid the chaos and embarrassment of conflicting
judgments.
These issues are relevant and fundamental to the
issues that are raised by the Petition. For these
reasons, movant CLTA respectfully submits that the
filing of the accompanying amicus curia brief will aid
the Court, and respectfully requests that the Court
accept the CLTA’s brief for its consideration.
Respectfully submitted,
CHARLES A. HANSEN
Counsel of Record
MARK D. EPSTEIN
WENDEL ROSEN LLP
1111 Broadway, 24th Floor
Oakland, CA 94607-4036
(510) 834-6600
chansen@wendel.com
mepstein@wendel.com
Counsel for Amicus Curiae
California Land Title Association

v
QUESTIONS PRESENTED
California Penal Code sections 115(e) and (f) allow
a prosecuting agency, after a person is convicted or
pleads guilty to procuring a deed by fraud or forgery, to
make a written motion upon which the court may
adjudge the deed to be void ab initio after a single
summary hearing on the matter. Anyone who holds
actual or putative title to the real property in question
prior to that point will thereby be stripped of their
ownership because a deed that is deemed void is
ineffective to transfer any title to the grantee under
California law.
(1)
Does the State of California’s application of
Penal Code Sections 115(e) and (f) violate an adversely
affected putative property owner’s due process rights
under the Fifth and Fourteenth Amendments to the
United States Constitution by enabling the state to
deprive them of their property without a reasonably
thorough and fair adjudicatory process that is
commensurate with the permanence and gravity of the
harm they stand to suffer as a result of the state’s
action?
(2)
California Penal Code Section 115(f)(9)(B)
imbues a criminal law court with the discretion to
deem a deed void ab initio, and in so doing, to disregard
any pending quiet title action filed by a putative
property owner in a coequal civil court where that
party is seeking a judicial determination of the validity
of the same deed at issue in the criminal law case.
Does this discretion constitute an arbitrary and
capricious act by the criminal court that deprives a
putative property owner of their due process rights of

vi
redress before the civil law court under the Fifth and
Fourteenth Amendments to the United States
Constitution?
(3)
Does California’s application of Penal Code
Section 115(f)(9)(B), which enables a criminal law court
to declare a deed void and thereby preempt a coequal
civil law court that is adjudicating the same issue in
another previously filed action, run afoul of the
Doctrine of Judicial Comity and traditional notions of
fundamental fairness?

vii
TABLE OF CONTENTS
MOTION FOR LEAVE TO FILE . . . . . . . . . . . . . . . i
IDENTITY AND INTERESTS OF MOVANT. . . . . . i
REASONS TO GRANT LEAVE TO FILE THE
ACCOMPANYING AMICUS BRIEF . . . . . . . . . . ii
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . v
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . ix
IDENTITY AND INTEREST
OF AMICUS CURIAE . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I. The Summary Hearing Mandated by California
Penal Code Sections 115(e) and (f) Does Not
Afford Due Process to a Third Party Putative
Property Owner. . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. Penal Code Sections 115(e) and (f) Do Not
Afford a Putative Property Owner a
Reasonable Opportunity to Investigate,
Prepare or Present Their Case . . . . . . . . . . . . 6
B. It’s Fundamentally Unfair to Require a
Putative Property Owner to Defend His or
Her Title Without the Ability to Conduct
Discovery . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
II. Penal Code Section 115(f)(9)(B) Runs Afoul of
Established Principles of Comity and
Fundamental Fairness . . . . . . . . . . . . . . . . . . . . 13

viii
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

ix
TABLE OF AUTHORITIES
CASES
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986). . . . . . . . . . . . . . . . . . . . . . . 12
Bryce v. O’Brien,
5 Cal.2d 615 (1936) . . . . . . . . . . . . . . . . . . . . . . . . 7
Burlington Northern Santa Fe R. Co. v. Assiniboine
and Sioux,
323 F.3d 767 (9th Cir. 2003). . . . . . . . . . . . . . . . 12
Cafeteria & Restaurant Workers v. McElroy,
367 U.S. 886 (1961). . . . . . . . . . . . . . . . . . . . . . . . 7
Colorado River Water Conservation Dist. v. United
States,
424 U.S. 800 (1976). . . . . . . . . . . . . . . . . . . . . . . 14
Firato v. Tuttle,
48 Cal.2d 136 (1957) . . . . . . . . . . . . . . . . . . . . . . . 7
Fuentes v. Shevin,
407 U.S. 67 (1983). . . . . . . . . . . . . . . . . . . . . . . 3, 8
Gilbert v. Homar,
520 U.S. 924 (1997). . . . . . . . . . . . . . . . . . . . . . . . 7
Goldberg v. Kelly,
397 U.S. 254 (1972). . . . . . . . . . . . . . . . . . . . . . . . 4
Great Northern Railway Co. v. National Railroad
Adjustment Board,
422 F.2d 1187 (7th Cir. 1970). . . . . . . . . . . . 13, 14

x
Hickman v. Taylor,
329 U.S. 495 (1947). . . . . . . . . . . . . . . . . . . . . . . 11
Kerotest Mfg. Co. v. C-O-Two Fire Equip. Co.,
342 U.S. 180 (1952). . . . . . . . . . . . . . . . . . . . . . . 14
Logan v. Zimmerman Brush Co.,
455 U.S. 422 (1982). . . . . . . . . . . . . . . . . . . . . . . . 7
Mathews v. Eldridge,
424 U.S. 319 (1976). . . . . . . . . . . . . . . . . . . . . . 4, 7
Metabolife Int’l, Inc. v. Wornick,
264 F.3d 832 (9th Cir.2001) . . . . . . . . . . . . . . . . 12
Newman v. Cornelius,
3 Cal.App.3d 279 (1970) . . . . . . . . . . . . . . . . . . . . 9
Pacesetter Systems, Inc. v. Medtronic, Inc.,
678 F.2d 93 (9th Cir. 1982). . . . . . . . . . . . . . . . . 15
People v. American Autoplan,
20 Cal.App.4th 760 (1993) . . . . . . . . . . . . . . . . . 13
Peterson v. Gibbs,
147 Cal.1 (1905) . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Plant Insulation Co. v. Fibreboard Corp.,
224 Cal.App.3d 781 (1990) . . . . . . . . . . . . . . . . . 13
Schlagenhauf v. Holder,
379 U.S. 104 (1964). . . . . . . . . . . . . . . . . . . . . . . 11
Smith v. M’Iver,
22 U.S. 532 (1824). . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. $8,850 in Currency,
461 U.S. 555 (1983). . . . . . . . . . . . . . . . . . . . . . . . 8

xi
United States v. James Daniel Good Real Property,
510 U.S. 43 (1993). . . . . . . . . . . . . . . . . . . . . . . 3, 8
Walters v. Fidelity Mortgage of Calif.,
730 F. Supp. 2d 1185 (E.D. Cal. 2010). . . . . . . . . 9
STATUTES
Cal. Civ. Proc. Code § 760.010, et seq. . . . . . . . . . 4, 5
Cal. Code Civ. Proc. §§760.010-760.040 . . . . . . . . . . 9
Cal. Code Civ. Proc. §§760.010-760.060 . . . . . . . . . . 9
Cal. Civ. Proc. Code § 762.070 . . . . . . . . . . . . . . . . . . 9
Cal. Civ. Proc. Code § 763.010 . . . . . . . . . . . . . . . . . . 9
Cal. Civ. Proc. Code § 764.010 . . . . . . . . . . . . . . . . . 10
Cal. Insurance Code § 12340.4 . . . . . . . . . . . . . . . . . 1
Cal. Insurance Code § 12340.5 . . . . . . . . . . . . . . . . . 1
Cal. Insurance Code § 12340.6 . . . . . . . . . . . . . . . . . 1
Cal. Insurance Code § 12340.8 . . . . . . . . . . . . . . . . . 1
Cal. Penal Code section 115. . . . . . . . . . . . . . . . . 3, 14
Cal. Penal Code Section 115(e)(1) . . . . . . . . . . . . . . . 2
Cal. Penal Code sections 115(e). . . . . . . . . . . . passim
Cal. Penal Code sections 115(f) . . . . . . . . . . . . passim
Cal. Penal Code Section 115(f)(9)(B) . . . . . . . . passim

xii
RULES
Fed. R. Civ. P. 56 . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Fed. R. Civ. P. 56(f) . . . . . . . . . . . . . . . . . . . . . . . . . 12

1
IDENTITY AND INTEREST
OF AMICUS CURIAE1
CLTA (www.CLTA.org) is a statewide trade
association existing as a nonprofit corporation under
California law. Its principal offices are located at 1215
K Street, Suite 1816, Sacramento, California 95814.
CLTA’s membership includes virtually all “title
insurers,” “underwritten title companies,” and
“controlled escrow companies” who conduct business in
the State of California, as those terms are defined by
California Insurance Code sections 12340.4, 12340.5,
12340.6. CLTA’s membership also includes affiliate
members such as attorneys, lenders, builders,
surveyors, trustees, escrow agents, consultants and
computer firms.
As part of its functions, CLTA acts as spokesperson
and representative of its members in matters of
common concern.
CLTA is also an “advisory
organization” as that term is defined in section 12340.8
of the California Insurance Code, and accordingly
prepares and recommends to its membership and to the
California Department of Insurance standard title

1

Pursuant to Rule 37.6 of the United States Supreme Court,
counsel for movant and amicus curiae authored this motion and
brief in whole, and no counsel for a party authored the motion in
brief in whole or in part, nor did any person or entity other than
the movant/amicus and its counsel make a monetary contribution
the preparation or submission of the motion in brief. Counsel of
record for all parties received timely notice of amicus curiae’s
intention to file this brief, and consent to file was granted by
Petitioner. Respondent has not responded to the request for
consent.

2
insurance policy forms and endorsements as well as
procedural manuals.
CLTA is active in the advocacy and monitoring of
legislation and regulations affecting the title industry.
CLTA also monitors judicial decisions affecting the title
industry and files briefs in cases of statewide
significance. CLTA has appeared as an amicus curiae
in a number of cases before the California Supreme
Court and the California Courts of Appeal.
This case presents a matter of direct interest to
CLTA and its members.
SUMMARY OF ARGUMENT
Under California Penal Code Section 115(e)(1), an
adjudication of a civil matter, that a false or forged
deed is void ab initio, may be made by a California
criminal court without any meaningful opportunity to
participate in the process on the part of those parties
whose interest(s) in the property may be annulled.
Penal Code Section 115(f)(9)(B) imbues the criminal
law court with the discretion to unilaterally disregard
an action pending before a companion civil law court in
the same jurisdiction when someone who holds
putative title to the subject property has previously
filed an action to quiet title in which they ask that
court to decide the validity of the very same deed that
is the subject of the prosecutor’s motion. Section
115(f)(9)(B) therefore enables the criminal law court to
arbitrarily preempt the civil law court and make a final
and binding determination regarding the validity of the
deed. Thus, after a single abbreviated and summary
proceeding in which someone who holds a putative

3
interest in the property has a right to appear and
present evidence, but no right to conduct discovery or
to the safeguards that a full trial on the merits would
afford them, that person can have their title annulled
and taken away from them.
The language of California Penal Code Sections
115(e) and (f) enables one state court to arbitrarily
disregard and override another coequal court and decide
whether a deed is void ab initio. In that regard, and as
applied against Petitioner by the California Court of
Appeal below, Penal Code Section 115 deprives one of
their title to real property without due process.
The Due Process Clause of the Fifth Amendment to
the United States Constitution, as extended to the
states of this country via the Fourteenth Amendment,
guarantees that, “no person shall . . . be deprived of
life, liberty or property, without due process of law.”
With regard to property, the purpose of the Due
Process Clause is to protect an owner’s use and
possession of property from arbitrary encroachment
and to minimize substantively unfair or mistaken
deprivation of their property. U.S. v. James Daniel
Good Real Property, 510 U.S. 43, 53 (1993); Fuentes v.
Shevin, 407 U.S. 67, 80-81 (1983).
The analysis of whether a procedure is sufficient to
satisfy a property owner’s Constitutional right to due
process requires that such procedural protections be
afforded to the putative property owner as the
particular situation demands, but generally requires
that the specific dictates of the procedure take into
consideration: (1) the nature and scope of the property
interest that will be affected by the official action;

4
(2) the risk of an erroneous deprivation of such interest
through the procedures that the government is using;
(3) the probable value, if any, of additional or
substitute procedural safeguards; and (4) the
government’s interest, including the function involved
in the physical and administrative burdens that any
additional or substitute procedural requirements would
entail. Mathews v. Eldridge, 424 U.S. 319, 334-335
(1976); Goldberg v. Kelly, 397 U.S. 254, 263-272 (1972).
In California and most other states, when the
validity of one’s land title is disputed or called into
question, it is rare that the title issue(s) at hand will
only impact the interests of one or two stakeholders.
Rather, in most instances many different parties—fee
title holders, lien holders, lessees, easement holders, tax
collectors, judgment creditors, future interest holders,
and others—will simultaneously have a stake in the real
property in question. In other words, land title records
are in the public domain, and a court action to void title
to land probably will in most instances have a ripple
effect, potentially disadvantaging many stakeholders at
one time, most of whom may have had nothing to do
with the events that gave rise to the criminal
proceedings or the peremptory voiding of title.
Property ownership is a fundamental right that is
rooted in the Constitution, as well as the social and
political fabric of our country. That’s why in California,
a putative property owner whose title to property is
called into question or is challenged by another party
has the right to affirm his or her property ownership by
way of a comprehensive judicial action to quiet title to
the property, pursuant to California Code of Civil

5
Procedure Section 760.010, et seq. An action to quiet
title affords a putative real property owner the right to
fully plead their case, conduct discovery, call and crossexamine witnesses, and otherwise hold a full trial on
the merits of their asserted ownership claim. The
availability of fully-developed civil quiet title procedure
and due process safeguards is particularly important
given that an often large group of interest holders may
be profoundly affected by a summary court decision.
On the other hand, California Penal Code Sections
115(e) and (f), and the California Court of Appeal
decision construing those code sections that gives rise
to this Petition, allow a criminal court to summarily
deprive someone of their property following a truncated
single hearing procedure, without due process, where
they are afforded no right to conduct discovery nor any
genuine opportunity to fully adjudicate the issues on
the merits.
Penal Code Section 115(f)(9)(B) also gives the
criminal law court the right, following the truncated
proceeding, to arbitrarily usurp another court’s
jurisdiction to decide the issue of a deed’s validity from
a civil law court even when a putative owner has
previously commenced an action to quiet title to the
same property. The criminal law court need not even
consider the existence of the pending quiet title action.
California’s application of this statute to render a deed
void when another action is pending before a coequal
court to adjudicate the validity of the same deed
deprives a property owner of his or her due process
rights under the Fifth and Fourteenth Amendments to
the United States Constitution. It also runs afoul of

6
the Doctrine of Judicial Comity and traditional notions
of fundamental fairness.
ARGUMENT
I. The Summary Hearing Mandated by
California Penal Code Sections 115(e) and (f)
Does Not Afford Due Process to a Third Party
Putative Property Owner
The Fifth and Fourteenth Amendments to the
United States Constitution guaranty that no person in
this country shall be deprived of property without due
process of law. This Court has long held that due
process requires that such procedural protections must
be afforded to the affected person(s) in jeopardy of
having their property rights abrogated by the
government as the particular situation demands.
A. Penal Code Sections 115(e) and (f) Do Not
Afford a Putative Property Owner a
Reasonable Opportunity to Investigate,
Prepare or Present Their Case
The California Penal Code summary procedure used
to declare a deed void ab initio fails to satisfy the due
process factors enumerated by this Court. Under
California Penal Code sections 115(e) and (f), once a
person is convicted or pleads guilty to the crime of
procuring a deed by fraud or forgery, the prosecuting
agency may make a written motion upon which the
court, after a single summary hearing on the matter
shall adjudge the alleged false or forged instrument to
be void ab initio, if the court determines that it is
appropriate to do so under applicable law. Anyone who
held actual or putative title to the real property in

7
question prior to that point will thereby be stripped of
their property ownership because a deed that is
adjudged to be void is ineffective to transfer any title to
the grantee under California law. Firato v. Tuttle, 48
Cal.2d 136, 139 (1957); Bryce v. O’Brien, 5 Cal.2d 615,
616 (1936).
Due process is not a technical conception or one that
has a fixed content unrelated to time, place and
circumstances. Gilbert v. Homar, 520 U.S. 924, 930
(1997); Cafeteria & Restaurant Workers v. McElroy,
367 U.S. 886, 895 (1961). Rather, to determine what
process is constitutionally due in a given circumstance,
this Court has generally balanced four distinct factors:
(1)
The private interest that will be affected by
the official action taken by the government;
(2)
The risk of an erroneous deprivation of that
private interest through the procedures that are used;
and
(3)
The probable value, if any, that would be
afforded by additional or substitute procedural
safeguards; and
(4)
The magnitude of the government’s interests
involved in the matter.
Logan v. Zimmerman Brush Co., 455 U.S. 422, 454
(1982); Gilbert v. Homar, supra, 520 U.S. at 930;
Mathews v. Eldridge, supra, 424 U.S. at 335.
Property ownership is a sacred and fundamental
right in the United States, one that is plainly stated as
a protected right in the Fifth and Fourteenth

8
Amendments themselves, and one that, as this Court
has written an untold number of times, cannot be
taken by the government without notice and an
adequate opportunity to be heard. See United States
v. $8,850 in Currency, 461 U.S. 555, 562, n. 12 (1983);
Fuentes v. Shevin, supra, 407 U.S. at 82; 49; U.S. v.
James Daniel Good Real Property, supra, 510 U.S. at
48-49.
Applying the factors that are enumerated above to
the summary procedure mandated by California Penal
Code Sections 115(e) and (f), the procedure does not
hold up as Constitutionally valid. It fails to afford a
putative property owner with due process. This is
particularly true where the putative property owner
has previously commenced, or is defending his or her
title in a previously commenced, action to quiet title to
the same property.
The State of California recognizes that the issue of
who holds title to real property can become disputed,
and that title to real property can be clouded, due to
claimed deed forgeries or for any number of other
reasons. The state has therefore enacted an entire
statutory scheme devoted to establishing a process
whereby one can pursue an action in the state’s civil
courts to quiet title to real property when the validity,
status or priority of one’s title is called into question.
Under California law, when two or more persons
have competing claims to the same real property, any
of the claimants may initiate a civil action to quiet title
to the property in the name(s) of one or more of the
claimants. It is a judicial process by which a
landowner, or a claimed landowner, may establish his,

9
her or their interest(s) in a particular parcel of real
property as against anyone else who may have a
competing claim or interest. Cal. Code Civ. Proc.,
§§760.010-760.060; Peterson v. Gibbs, 147 Cal.1, 5-6
(1905). The purpose of a quiet title action is to
determine “all conflicting claims to the property in
controversy, and to decree to each such interest or
estate therein as he [or she] may be entitled to.”
Walters v. Fidelity Mortgage of Calif., 730 F. Supp. 2d
1185, 1197 (E.D. Cal. 2010); Newman v. Cornelius, 3
Cal.App.3d 279, 284 (1970).
Land title records are typically kept in the public
domain, and a criminal court’s decision to void a deed
under California Penal Code Sections 115 (e) and (f) is
likely to have a domino effect in most instances,
simultaneously abrogating the interests of several
stakeholders in the subject property without a fair
opportunity to be heard and present their cases to the
court. That’s why civil quiet title actions are often
multi-party affairs in which people with remote,
contingent, possible and minor interests in land are
named, served and given a chance to benefit from due
process.
The quiet title statutory scheme provides a number
of procedural safeguards that include, among other
things, a manner in which to reduce the risk that a
forgotten or unknown person who may have an
ownership interest in the property is provided with
notice of a quiet title action, and an opportunity to
respond to it. See, e.g., Cal. Civ. Proc. Code § 762.070
(rights of unknown defendants), and §§ 763.010 –
763.040 (conditions required for service of process by

10
publication). Litigants in an action to quiet title may
avail themselves of the full range of discovery
procedures that are afforded to civil litigants in other
types of actions, and they are entitled to a full court
trial on the merits. Cal. Civ. Proc. Code § 764.010. The
availability of a fully-developed civil quiet title
procedure and due process safeguards is particularly
important given that an often large group of interest
holders who have relied upon the integrity of the public
records--secured lenders, judgment creditors , lessees,
easement holders, among others-- may be profoundly
affected by a summary order entered by the criminal
law court without safeguards to ensure that they have
had their due process.
California Penal Code Sections 115(e) and (f), on the
other hand, provide a truncated summary procedure
that is paltry by comparison to a quiet title action. The
statute enables a criminal law court to declare a deed
void following a single hearing on a noticed motion by
the prosecutor that may be scheduled ninety calendar
days from the date the motion is made. While the
statute allows any party who claims an interest in the
property “to be heard and present information to the
court,” such an interested party is not afforded any
right to conduct discovery or otherwise participate in
the case prior to that hearing, rendering any due
process afforded in the criminal law court to be illusory
at best.
As a result, a party who has a putative interest in
the real property in question is not allowed to
adequately investigate the prosecutor’s claims and is
left to improvise a defense of their property title as best

11
as they can. This arbitrarily and unfairly places
property stakeholders fates in the hands of one court,
in a case to which they are not even a party and in
which they were not previously entitled to participate.
In short, by the time an interested party is given the
right to address the criminal court in an abbreviated
hearing, the adverse decision has already been made,
and convincing the court that its decision was in error
is far more difficult to accomplish.
B. It’s Fundamentally Unfair to Require a
Putative Property Owner to Defend His or
Her Title Without the Ability to Conduct
Discovery
Without a party’s right to conduct discovery and
have a trial on the merits, a property owner may be
deprived of their property based on a court acting on a
motion, with limited evidence and no participation of a
party whose interest will be affected. As early as 1947,
this Court recognized that a party’s right to conduct
discovery is a fundamental element of due process. See
Hickman v. Taylor, 329 U.S. 495, 507 (1947) (“We
agree, of course, that the deposition-discovery rules are
to be accorded a broad and liberal treatment to
effectuate their purpose that civil trials in the federal
courts no longer need be carried on in the
dark…Mutual knowledge of all the relevant facts
gathered by both parties is essential to proper
litigation.”]); Schlagenhauf v. Holder, 379 U.S. 104, 114
(1964).
Federal Rule of Civil Procedure 56 which controls
summary judgment procedures, is instructive by
analogy. Rule 56 has embedded within it an express

12
carve out to protect a litigant’s fundamental right to
have an adequate opportunity to conduct discovery.
Fed. R. Civ. P. 56(f); Burlington Northern Santa Fe R.
Co. v. Assiniboine and Sioux, 323 F.3d 767, 773 (9th Cir.
2003); Metabolife Int’l, Inc. v. Wornick, 264 F.3d 832,
846 (9th Cir.2001). In Burlington Northern Santa Fe
R. Co., supra at 773, the Ninth Circuit Court of
Appeals commented in its decision that, “Where…a
summary judgment motion is filed so early in the
litigation, before a party has had any realistic
opportunity to pursue discovery relating to its theory of
the case, district courts should grant any Rule 56(f)
motion fairly freely.” This Court has construed Rule
56(f) as requiring, rather than merely permitting,
discovery, “…where the non-moving party has not had
the opportunity to discover information that is
essential to its opposition.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 250 n. 5 (1986).
The single hearing procedure by which a criminal
law court is empowered to summarily adjudicate
whether a deed is void or valid pursuant to California
Penal Code Sections 115(e) and (f) is akin to a
summary judgment motion, albeit a procedure whereby
a party who stands to lose their property doesn’t even
have the right to conduct any discovery. The gravity of
the interest that can be lost – someone’s ownership of
their real property – by the criminal law court’s
decision on a prosecutor’s motion to have a deed
declared void is too great to be decided on such a
truncated procedure. On balance, it would benefit the
government and all parties involved for the parties to
be afforded the opportunity to conduct discovery and
have a full trial on the merits.

13
II. Penal Code Section 115(f)(9)(B) Runs Afoul of
Established Principles of Comity and
Fundamental Fairness
When two concurrent actions are pending in
companion California courts to determine the validity
of the same deed, one a civil action to quiet title to real
property and the second a criminal forgery case
pursuant to California Penal Code Section 115,
regardless of which case was filed first, Section
115(f)(9)(B) arbitrarily gives the criminal court the
right to disregard and preempt the civil court action.
This flies in the face of traditional notions of comity
and fundamental fairness.
It has been stated in many California published
opinions that where two courts have concurrent
jurisdiction over a class of cases, the one that first
should assume jurisdiction over the subject matter of a
particular controversy.
Plant Insulation Co. v.
Fibreboard Corp., 224 Cal.App.3d 781, 786 (1990);
People v. American Autoplan, 20 Cal.App.4th 760, 769,
770 (1993).
Federally, there is a generally recognized Doctrine
of Judicial Comity which permits a District Court to
decline to exercise jurisdiction over an action when a
complaint involving the same parties and issues has
already been filed in another district. Great Northern
Railway Co. v. National Railroad Adjustment Board,
422 F.2d 1187, 1193 (7th Cir. 1970). The purpose of the
Comity Doctrine is to avoid placing an unnecessary
burden on the judiciary, and to avoid the
embarrassment of conflicting judgments. Great

14
Northern Railway Co. v. National Railroad Adjustment
Board, supra, 422 F.2d at 1193.
When cases involving identical issues are pending
before two federal district courts, “though no precise
rule has evolved, the general principle is to avoid
duplicative litigation.” Colorado River Water
Conservation Dist. v. United States, 424 U.S. 800, 817
(1976). In most “cases of concurrent jurisdiction, the
court which first has possession of the subject must
decide it.” Smith v. M’Iver, 22 U.S. 532, 535 (1824).
While this principle of comity between courts is not
absolute, “ this Court has explained that, “[W]ise
judicial administration, giving regard to conservation
of judicial resources and comprehensive disposition of
litigation, does not counsel rigid mechanical solution of
such problems. The factors relevant to wise
administration here are equitable in nature.” Kerotest
Mfg. Co. v. C-O-Two Fire Equip. Co., 342 U.S. 180, 183184 (1952):
The Ninth Circuit has framed the issue as follows:
“Normally sound judicial administration would
indicate that when two identical actions are filed
in courts of concurrent jurisdiction, the court
which first acquired jurisdiction should try the
lawsuit and no purpose would be served by
proceeding with a second action. However, this
‘first to file’ rule is not a rigid or inflexible rule to
be mechanically applied, but rather is to be
applied with a view to the dictates of sound
judicial administration.”

15
Pacesetter Systems, Inc. v. Medtronic, Inc., 678
F.2d 93, 95 (9th Cir. 1982) [Bold added for
emphasis.].
While the Doctrine of Judicial Comity is not strict or
rigid in its application, the manner in which California
Penal Code Section 115(f)(9)(B) allows a criminal law
court to override a coequal civil law court is. It unfairly
affords the California criminal law court with the
preemptive authority over a civil law court that is
concurrently adjudicating the same matter. It is
arbitrary, unfair, and runs contrary to this Court’s
proclamation that such issues should be resolved
equitably rather than according to rigid and inflexible
rules.
CONCLUSION
Though the public policy underlying California
Penal Code Section 115 to criminalize the deliberate
procurement and recording of fraudulent deeds and
other instruments affecting title to real property is
sound, the statute is poorly drafted and ill-considered
with regard to the ramifications of subsections (e) and
(f). This is demonstrated by the manner in which it has
been applied by the California Court of Appeal in
People v. Astorga-Leidera. Sections 115(e) and (f) run
afoul of Constitutional due process and sound
principles of comity and fairness. For these reasons,
the Court should grant the Petition for Writ of
Certiorari.

16
Respectfully submitted,
CHARLES A. HANSEN
Counsel of Record
MARK D. EPSTEIN
WENDEL ROSEN LLP
1111 Broadway, 24th Floor
Oakland, CA 94607-4036
(510) 834-6600
chansen@wendel.com
mepstein@wendel.com
Counsel for Amicus Curiae
California Land Title Association

